Filed 8/18/20

CERTIFIED FOR PARTIAL PUBLICATION*
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION TWO

MICHAEL JAMES HANNA,
E070995, E071457

Plaintiff and Appellant,
v.

(Super.Ct.No. MCC1701055)

LITTLE LEAGUE BASEBALL, INC.,

OPINION

Defendant and Respondent.

APPEAL from the Superior Court of Riverside County. Angel M. Bermudez,
Judge. Affirmed in part and reversed in part.
Michael James Hanna, in pro. per., for Plaintiff and Appellant.
Wilson, Elser, Moskowitz, Edelman & Dicker and Daniel J. Taylor for Defendant
and Respondent.
The trial court declared plaintiff Michael Hanna to be a vexatious litigant under
several subparts of Code of Civil Procedure section 391, subdivision (b).1 As a result of

* Pursuant to California Rules of Court, rules 8.1105(b) and 8.1110, this opinion is
certified for publication with the exceptions of parts A. through E. of the DISCUSSION.
l

Unlabeled statutory references are to the Code of Civil Procedure.
1

A001

that determination and the trial court’s additional finding that Hanna was not reasonably
likely to succeed on the merits of this action, Hanna was ordered to furnish a $100,000
security bond. The trial court also imposed a prefiling restriction on Hanna in future
litigation, requiring Hanna to seek permission from the presiding justice or presiding
judge of the court if he brings a civil action as a pro se litigant.
In these consolidated appeals, Hanna challenges the vexatious litigant
determination and the determination that he was not likely to succeed on the merits of the
action. We conclude that his challenges are not meritorious. We therefore affirm the
prefiling restriction placed on Hanna’s filing of future actions as a pro se litigant.
Hanna further contends that the trial court lacked authority to rule on discovery
motions and to impose discovery sanctions after the filing of the motion under section
391.1 to declare Hanna a vexatious litigant and to have him furnish security. In the
published portion of this opinion, we agree that the trial court was without authority to
rule on the discovery motions or to impose sanctions. Under the plain language of
section 391.6, all further proceedings in the action should have been stayed once the
vexatious litigant motion under section 391.1 was filed. We therefore reverse the orders
imposing discovery sanctions. We affirm the judgment in all other respects.

BACKGROUND
A. Present Litigation
In October 2017, Hanna filed an amended complaint against Little League
Baseball, Inc. (Little League), alleging trade libel and two claims for unfair and
fraudulent business practices in violation of the Unfair Competition Law (UCL; Bus. &
2

A0 02

Prof. Code, § 17200, et seq.). Hanna alleged that he was the president of a youth sports
organization known as Team Hemet Baseball and Softball (Team Hemet). He alleged
that in his capacity as president of Team Hemet, in January 2017 he “executed an
agreement” with Little League “for the individual ‘... right to conduct a baseball and
softball program under the name “Little League’”” for one year. In July 2017, Little
League “purportedly” placed Team Hemet on a regional hold, which “prevent[ed] any
operations by [Team Hemet] until satisfied.” For the UCL causes of action, Hanna
alleged that Little League “ha[d] improperly obtained money from [Hanna], and
continue[d] to improperly obtain money from the general public.” The trial court
dismissed the trade libel claim on demurrer.
B. Vexatious Litigant Determination and Discovery Rulings
In May 2018, Little League moved for an order finding Hanna to be a vexatious
litigant and requiring him to furnish security because he was not reasonably likely to
succeed on the merits. Little League requested that the court judicially notice 14
different civil actions filed from 2009 through 2018 involving Hanna as a pro se plaintiff
and a defendant. The only evidence that Hanna submitted in opposition was a declaration
from himself in which he attached several screenshots of purported social media posts.
On June 7, 2018, the trial court found Hanna to be a vexatious litigant under
subdivision (b)(l)-(3) of section 391. The trial court further concluded that Hanna did
not have a reasonable likelihood of succeeding on the UCL claims. The trial court also
issued a prefiling order prohibiting Hanna, “unless represented by an attorney,

5? a

from

filing any new litigation in the courts of California without approval of the presiding
3

A003

justice or presiding judge of the court in which the action is filed.” At the same hearing,
the trial court also granted Little League’s pending discovery motions and imposed a total
of $1,200 in discovery sanctions ($400 for each of the three motions) against Hanna.
On July 26, 2018, the trial court ordered Hanna to furnish a $100,000 security
bond pursuant to section 391.7 by the end of the next month. On the same day, Hanna
filed a notice of appeal in which he purported to appeal from both the “June 7, 2018,”
order and the July 26, 2018, order.
We stayed the appeal pursuant to section 391.7, subdivision (c), pending Hanna’s
compliance with the prefiling order’s requirement that he seek permission from the
presiding justice to file the appeal. Hanna filed that request in August 2018, and we
partially granted it on October 23, 2018. We lifted the stay only as to Hanna’s “appeal
from the June 7, 2018 order declaring [Hanna] to be a vexatious litigant subject to a
prefiling order.”
In the meantime, in September 2018, the trial court dismissed the action in its
entirety for Hanna’s failure to furnish the requisite security bond. Hanna appealed from
the judgment. We granted permission for him to proceed with the appeal. We
consolidated the appeals.
DISCUSSION
A. Statement ofAppealability
Little League urges us to strike the opening brief for Hanna’s failure to comply
with the rule of court requiring that the opening brief include a statement that the final
judgment is appealable or “explain why the order appealed from is appealable.” (Cal.
4

A004

Rules of Court, rule 8.204(a)(2)(B).) The opening brief does not include a proper
statement of appealability. The section containing that title includes two sentences
addressing the standard of review for a vexatious litigant determination. It does not
identify the judgment or order that is being appealed or explain why the order is
appealable.
When a brief violates the rule of court requiring a statement of appealability, we
may “[s] trike the brief with leave to file a new brief within a specified time” or
“[disregard the noncompliance.” (Cal. Rules of Court, rule 8.204(e)(2)(B) & (C);
Westchester Secondary Charter School v. Los Angeles Unified School Dist. (2015) 237
Cal.App.4th 1226, 1235, fn. 4.) We choose the latter option. As we explained in our
October 2018 order granting in part Hanna’s request to appeal from the June 2018 order
declaring him a vexatious litigant, the initial appeal was premature except as to the
prefiling order. (In re Marriage ofRifkin & Carty (2015) 234 Cal.App.4th 1339, 1347
[vexatious litigant prefiling order under § 391.7, subd. (a), appealable as an injunction
under § 904.1, subd. (a)(6)].) The order requiring Hanna to post a security bond,
however, was not appealable. (Childs v. PaineWebber Incorporated (1994) 29
Cal.App.4th 982, 985, fn. 1 (Childs).) Nor were any of the other interlocutory orders of
which he complained—discovery orders and sanctions of less than $5,000. (Doe v.
United States Swimming, Inc. (2011) 200 Cal.App.4th 1424, 1432 [“There is no statutory
provision for appeal from an order compelling compliance with a discovery order”]; cf.
§ 904.1, subd. (b)(12) [interlocutory orders imposing sanctions over $5,000 immediately
appealable].) Those orders did, however, become reviewable on appeal from the final
5

A005

judgment, from which Hanna appealed. (§ 904.1, subd. (a)(1); County ofNevada v.
Kinicki (1980) 106 Cal.App.3d 357, 363.) Consequently, the issues that Hanna raises in
his opening brief all concern orders that are properly before us, so we reject Little
League’s contention that the grounds for the appeal are “not readily apparent.” We
therefore exercise our discretion to disregard Hanna’s noncompliance with the rules of
court.
B. Vexatious Litigant Statutory Scheme
“The vexatious litigant statutes (§§ 391-391.7) are designed to curb misuse of the
court system by those persistent and obsessive litigants who, repeatedly litigating the
same issues through groundless actions, waste the time and resources of the court system
and other litigants.” (Shalant v. Girardi (2011) 51 Cal.4th 1164, 1169 (Shalant); Bravo
v. Ismaj (2002) 99 Cal.App.4th 211, 220-221.) Section 391, subdivision (b), lists four
ways in which a person can qualify as a “vexatious litigant.” (§391, subd. (b)(l)-(4).)
As relevant here, a “vexatious litigant” is defined as a person who “[i]n the immediately
preceding seven-year period has commenced, prosecuted, or maintained in propria
persona at least five litigations other than in a small claims court that have been ...
finally determined adversely to the person ....” (§ 391, subd. (b)(1).) “‘Litigation’” is
defined as including “any civil action or proceeding, commenced, maintained or pending
in any state or federal court.” (§391, subd. (a).) “A litigation includes an appeal or civil
writ proceeding filed in an appellate court.” {Garcia v. Lacey (2014) 231 Cal.App.4th
402, 406 {Garcia).) “A litigation is finally determined adversely to a plaintiff if he does

6

A006

not win the action or proceeding he began, including cases that are voluntarily dismissed
by a plaintiff.” (Ibid.)
The “vexatious litigant statutes provide courts and nonvexatious litigants with two
distinct and complementary sets of remedies. In pending litigation, a defendant may have
the plaintiff declared a vexatious litigant and, if the plaintiff has no reasonable probability
of prevailing, ordered to furnish security. If the plaintiff fails to furnish the security, the
action will be dismissed. (§§ 391.1-391.6.) In addition, a potential defendant may
prevent the vexatious litigant plaintiff from filing any new litigation in propria persona by
obtaining a prefiling order and, if any new litigation is inadvertently permitted to be filed
in propria persona without the presiding judge’s permission, may then obtain its
dismissal. (§391.7.)” (Shalant, supra, 51 Cal.4thatp. 1171.)
“The trial court exercises its discretion in determining whether a person is a
vexatious litigant. Review of the order is accordingly limited and the Court of Appeal
will uphold the ruling if it is supported by substantial evidence. Because the trial court is
best suited to receive evidence and hold hearings on the question of a party’s
vexatiousness, we presume the order declaring a litigant vexatious is correct and imply
findings necessary to support the judgment.” (Golin v. Allenby (2010) 190 Cal.App.4th
616, 636 (Golin); Fink v. Shemtov (2010) 180 Cal.App.4th 1160, 1169 (Fink).) We also
will uphold the trial court’s determination that the vexatious litigant does not have a
chance of success in the action if that determination is supported by substantial evidence.
(Golin, supra, at p. 636; Garcia, supra, 231 Cal.App.4th at p. 408.) The trial court
weighs conflicting evidence and is not required to assume the truth of the allegations.
7

A007

{Moran v. Murtaugh Miller Meyer & Nelson LLP (2007) 40 Cal.4th 780, 782, 786
{Moran).)
C. Substantial Evidence Supporting Vexatious Litigant Determination
Hanna contends that there was not substantial evidence supporting the trial court’s
determination under section 391, subdivision (b)(1), that he as a pro se litigant had
commenced, prosecuted, or maintained at least five civil actions in the preceding seven
years that had been finally determined adversely to him. We do not agree.2
Little League presented evidence of 14 civil actions in which Hanna represented
himself as a plaintiff or a defendant from 2009 through 2018. The vexatious litigant
motion was filed in May 2018, so the relevant seven-year period begins in May 2011.
{Stolz v. Bank ofAmerica (1993) 15 Cal.App.4th 217, 224.) On appeal, Hanna concedes
that one of the lawsuits—Hanna et al. v. State Farm General Insurance Co. et al.
(E052055, app. dismissed Jan. 10, 2012)—qualifies under the statute. We agree as to the
appeal in that action. Hanna commenced the action pro se in 2009, and it was dismissed
in August 2010, before the start of the relevant seven-year period under section 391,
subdivision (b)(1). Hanna’s pro se appeal in that action, however, was not dismissed
until January 2012. The appeal therefore was maintained during the relevant seven-year
period and qualifies as one of the five civil actions adversely determined against Hanna

2

Hanna requests that we judicially notice the declaration and accompanying
exhibits that he filed in the trial court in support of his motion for reconsideration of the
order declaring him a vexatious litigant. We deny the request. Hanna does not challenge
any aspect of the trial court’s denial of his motion for reconsideration, so the documents
are not relevant.
8

A008

as a pro se litigant in that period. (Garcia, supra, 231 Cal. App.4th at p. 406 [litigation
under § 391, subd. (b)(1), includes appeals].) The question remains whether at least four
of the remaining 13 actions qualify. Hanna contends that none of them does.
We conclude that there is substantial evidence that at least four of the remaining
13 cases qualify under section 391, subdivision (b)(1). Those cases are (1) Hanna v. Hall
et al. (C.D.Cal., Sept. 8, 2015, No. EDCV15-MC-00009-UA (DTB) (Hall); (2) Hanna v.
Hemet Youth Baseball, Inc. (Super. Ct. Riverside County, 2015, No. RIC1512685)
(Hemet Youth Baseball I); (3) Hanna v. Paino (Super. Ct. Riverside County, 2017, No.
HEC1701170) (Paino); and (4) Hanna v. Townsend (Super. Ct. Riverside County, 2017,
No. HEC 1701533) (Townsend). Hanna, as a pro se litigant, commenced all four of those
cases within the relevant time period, and all of them were finally adjudicated against
him.
The first two, Hall and Hemet Youth Baseball I, were brought against the same
individuals, with the latter including two additional corporate defendants, Hemet Youth
Baseball, Inc. and Pony, Inc. In Hall, which was brought in federal court in August 2015,
Hanna petitioned the court to perpetuate the testimony of each of the individual
defendants in anticipation of future federal litigation he planned to bring against them. In
September 2015, the petition was denied for failing to meet the requirements of Federal
Rule of Civil Procedure 27, and the action was dismissed with prejudice. The next
month, in October 2015, Hanna filed Hemet Youth Baseball I in Riverside Superior
Court. That action was dismissed without prejudice on December 17, 2015. Hanna does
not dispute that he commenced both of those actions as a pro se litigant, that they fall
9

A009

within the relevant timeframe, or that they qualify as “litigation” under section 391,
subdivision (b)(1).
Hanna instead maintains that both of those cases do not qualify under the statute
because they purportedly were part of a ‘“global settlement’” and therefore were not
adversely determined against him. He further contends that dismissals pursuant to
settlement agreements do not qualify as adverse determinations against the pro se litigant.
We need not address that issue, because the record contains no evidence that those two
cases were dismissed as part of any “global” settlement or were otherwise part of any
settlement agreement. The settlement agreement that Hanna claims involved those cases
was entered into in March 2016 and did involve all of the named defendants in those two
cases, as well as several additional individuals. By its express terms, however, the
settlement agreement involved yet another action brought by Hanna against those
defendants—Hanna v. Hemet Youth Baseball, Inc. (Super. Ct. Riverside County, 2016,
No. RIC1513590) (.Hemet Youth Baseball II)—filed in state court in November 2015.
Hemet Youth Baseball II is the only lawsuit that was mentioned in the settlement
agreement. In the recitals section of the settlement agreement, the parties agreed that it
was the allegations in the complaint in that action (Hemet Youth Baseball II) that the
parties “desirefd] to settle” “without the necessity of trial and [had] agreed to do so”
through that settlement agreement. The agreement was executed in March 2016, and the
underlying case was subsequently dismissed.
The record contains no evidence to support Hanna’s contention that the settlement
of Hemet Youth Baseball II also included Hall (which was dismissed before Hemet Youth
10

A010

Baseball II was even filed) or Hemet Youth Baseball I (which was dismissed four months
before the settlement agreement in Hemet Youth Baseball II and only one month after that
action was filed). It is irrelevant that those cases purportedly involved related issues.
Hanna does not contend that the settlement agreement contains any ambiguous language
on the basis of which we could construe it to include or to relate back to the two prior
actions. Nor do we perceive any. “If contractual language is clear and explicit, it
governs.” {Bank of the West v. Superior Court (1992) 2 Cal.4th 1254, 1264; Weddington
Productions, Inc. v. Flick (1998) 60 Cal.App.4th 793, 810 [“A settlement agreement is a
contract, and the legal principles which apply to contracts generally apply to settlement
contracts”].) By its express terms, the settlement agreement encompassed the allegations
in the complaint in Hemet Youth Baseball II only and not the two prior actions brought
against the same defendants, Hall and Hemet Youth Baseball I. Consequently, Hall and
Hemet Youth Baseball I qualify as litigation adversely determined against Hanna under
subdivision (b)(1) of section 391.
The two remaining civil actions pursued by Hanna as a pro se litigant and
determined adversely against him within the relevant period {Paino and Townsend) were
both unsuccessful requests Hanna made for civil harassment restraining orders. The
request in one action {Paino) was denied after a hearing in July 2017, and the other action
{Townsend) was dismissed in August 2017 after Hanna did not appear for the hearing.
On appeal, Hanna’s only argument specific to these cases is that “[t]he Register of
Actions is not evidence of the character or finality of the litigation.” Little League
submitted computer printouts of the complete dockets from both actions to demonstrate
11

A011

that Hanna had pursued them within the relevant time period as a pro se litigant and that
the actions were determined adversely against him. No minute orders from those actions
were submitted. The only authority that Hanna cites as support for the proposition that
the dockets are inadequate proof is an unpublished Court of Appeal opinion. The rules of
court prohibit Hanna and us from citing or relying on that opinion. (Cal. Rules of Court,
rule 8.1115(a).) If a superior court chooses to keep a register of actions, then “the title of
each cause, with the date of its commencement and a memorandum of every subsequent
proceeding in the action with its date” “shall be entered” in the register. (Gov. Code,
§ 69845.) We presume that the docket entries are accurate. (Evid. Code, § 664; In re
Lopez (1970) 2 Cal.3d 141, 146 [presumption that preparation of docket entry was
regularly performed duty of the court clerk].) Hanna does not contend otherwise. The
docket entries for both cases document what occurred in the hearings and the resolution
of those matters. The computer printouts of the dockets or registers of actions are
sufficient to demonstrate that the civil actions were brought by Hanna as a pro se litigant
within the relevant time period and that those actions were decided adversely against
him.3
Hanna argues that Little League failed to carry its burden of presenting evidence
that the prior litigations were “finally determined,” because Little League did not

3

In his reply brief, Hanna complains that Little League “attempted to introduce
evidence, via an inappropriate method (Request for Judicial Notice) which bars
presumption of truth of the matters stated therein.” We consider the argument forfeited
because Hanna did not make it in his opening brief and has not demonstrated good cause
for failing to do so. (Allen v. City ofSacramento (2015) 234 Cal.App.4th 41, 52.)
12

A012

demonstrate that “the prior litigations ha[d] been adjudicated on appeal or that the time to
request appellate review ha[d] expired.” Hanna relies on Childs, supra, 29 Cal.App.4th
at page 994, for the proposition that Little League was required to “submit evidence that
the prior litigations ha[d] been adjudicated on appeal or that the time to request appellate
review ha[d] expired.” Childs is inapposite here. It stands for the proposition that a case
in which an appeal is pending is not determined finally against the litigant because all
avenues of appellate review have not been exhausted. (Id. at pp. 992-993.)
Here, unlike in Childs, the record contains substantial evidence of finality for all
five of the cases that qualify under section 391, subdivision (b)(1). Of the four
nonconceded cases, three are state court cases that were terminated in December 2015,
July 2017, and August 2017. The fourth is the federal action that was dismissed in
September 2015. The time limit for filing appeals in each of these actions had long
passed by the time that Little League filed its motion in May 2018. (Cal. Rules of Court,
rule 8.104(a)(1) [normal time to appeal in civil case is 60 days]; Fed. Rules App.Proc.,
rule 4(a)(1)(A) [normal time to appeal in civil case is 30 days].) No further evidence of
finality was needed.
Because we conclude that the trial court order finding Hanna to be a vexatious
litigant under section 391, subdivision (b)(1), is supported by substantial evidence of five
qualifying actions brought by or maintained by Hanna pro se during the relevant sevenyear timeframe and determined adversely against him, we conclude that the trial court did
not abuse its discretion in finding Hanna to be a vexatious litigant under that

13

A013

subdivision.4 We consequently need not and do not address whether the trial court’s
findings under the other subdivisions were supported by substantial evidence.
D. Substantial Evidence Supporting Determination ofNo Reasonable Likelihood of
Success
Hanna contends that the trial court’s finding under section 391.3, subdivision (a),
that he did not have a reasonable likelihood of success on the merits of the UCL claims
was not supported by substantial evidence. The contention lacks merit.
“The UCL prohibits, and provides civil remedies for, unfair competition, which it
defines as ‘any unlawful, unfair or fraudulent business act or practice.’” (Kwikset Corp.
v. Superior Court (2011) 51 Cal.4th 310, 320 (Kwikset), superseded by statute on another
ground as stated in Citizens ofHumanity, LLC v. Hass (2020) 46 Cal.App.5th 589, 594,
fn. 2; Bus. & Prof. Code, § 17200.) Private standing under the UCL “‘is limited to any
“person who has suffered injury in fact and has lost money or property’ as a result of
unfair competition.

59555

(Kwikset, supra, atpp. 320-321; Bus. & Prof. Code, § 17204.)

The trial court found that Hanna’s UCL causes of action did not have a reasonable
likelihood of success because Hanna did not have standing to pursue those claims. That
finding is supported by substantial evidence. Little League submitted substantial
evidence that Hanna did not suffer an injury in fact. The only payments that Little
League received related to Team Hemet were a $150 check to pay the charter fee and a

4

Because the vexatious litigant statute requires only that five litigations be
determined adversely against the pro se litigant in the prior seven years, we need not and
do not address Hanna’s arguments about whether any of the other past actions qualify
under the statute.
14

A014

$20.52 credit card payment to pay for the addition of teams to the league. Hanna did not
make those payments individually. Instead, those payments were made by Team Hemet.
In addition, Hanna never paid any money to Little League. The vice president of
operations for Team Hemet in 2017 further stated that to his knowledge “Hanna ha[d]
never contributed any of his own money to Team Hemet.”
The only evidence that Hanna submitted in opposition to Little League’s motion to
declare him a vexatious litigant and to require him to furnish security was Hanna’s own
declaration, to which he attached screen shots from social media posts. Nowhere in the
declaration does Hanna offer any evidence of how he personally suffered any financial or
property loss. The social media posts likewise had no relation to any possible financial
injury. At the hearing on the motion, Hanna stated that he planned to submit evidence at
trial demonstrating his injury, but he presented no such evidence at the hearing.
Hanna argued in the trial court, as he does here, that the Little League “[cjharter
[application and [ijnsurance [ejnrollment [f]orm” that he attached to the original
complaint (and we assume for the sake of argument was also attached to the first
amended complaint)5 demonstrates that he was personally liable for Team Hemet’s
obligations. He argues that he, as “controller of the organization,” was “liable for all of

5

Although the agreement with Little League is listed as an exhibit to the amended
complaint, that exhibit is not included in the clerk’s transcript on appeal. The agreement
is included as an attachment to the original complaint. “An ‘amended’ complaint
supersedes all prior complaints,” and “[t]he original ceases to ‘“perform any function as a
pleading.’”” {Lee v. Bank ofAmerica (1994) 27 Cal.App.4th 197, 215.) We assume for
the sake of argument that the agreement was also attached to the amended complaint in
the trial court. Neither party suggests otherwise.
15

A015

the debts and obligations of the organization” because the agreement that he signed as the
president of Team Hemet contained the following provision: “I pledge myself and my
organization to strict compliance with all the Rules and Regulations of Little League
Baseball, Incorporated.” That statement does not support the proposition that Hanna was
in any way personally liable for Team Hemet or that he suffered any financial injury
based on the hold placed on Team Hemet by Little League. It instead provides that
Hanna was required in his capacity as president to comply with Little League’s rules.
Nowhere does the agreement provide that Hanna was personally responsible for Team
Hemet’s financial obligations by virtue of his role as president of the organization or
otherwise.
After weighing the evidence submitted by the parties, the trial court found that it
was not reasonably likely that Hanna would succeed on the merits of the UCL claims.
Because that finding is supported by substantial evidence, it ‘““is in this as in every civil
case binding upon the appellate court.

55555

{Moran, supra, 40 Cal.4th at p. 785.)

E. Effect ofInitial Appeal
Hanna contends that the trial court lacked jurisdiction to dismiss the case because
he had already filed a notice of appeal from the order declaring him a vexatious litigant.
We do not reach the merits of this argument because any error would be harmless.
There are two different ways in which a court can lack jurisdiction. {People v.
Ford (2015) 61 Cal.4th 282, 286.) “A court lacks jurisdiction in a fundamental sense
when it has no authority at all over the subject matter or the parties, or when it lacks any
power to hear or determine the case. [Citation.] If a court lacks such “‘fundamental’”
16

A016

jurisdiction, its ruling is void.” (Ibid.) “Even when a court has fundamental jurisdiction,
however, the Constitution, a statute, or relevant case law may constrain the court to act
only in a particular manner, or subject to certain limitations.” (Id. at pp. 286-287.)
“When a trial court has fundamental jurisdiction but fails to act in the manner prescribed,
it is said to have acted ‘in excess of its jurisdiction.’” (Id. at p. 287.) “Because an
ordinary act in excess of jurisdiction does not negate a court's fundamental jurisdiction to
hear the matter altogether [citation], such a ruling is treated as valid until set aside.”
(Ibid.)
Hanna does not specify whether he believes that the trial court lacked fundamental
jurisdiction or acted in excess of its jurisdiction. There is no question that the court did
not lack jurisdiction in the fundamental sense—the trial court possessed jurisdiction over
the subject matter and the parties. Consequently, the trial court at worst acted in excess
of its jurisdiction. But we need not decide whether the trial court acted in such a manner,
because any such error would be harmless. The only way that Hanna could have been
prejudiced by such an error would be if the vexatious litigant determination were not
supported by substantial evidence or were otherwise erroneous. But we have concluded
otherwise. Because of that conclusion, Hanna still would have been required to file the
security bond to proceed with his lawsuit in the trial court, which he did not do.
Therefore, the trial court’s reason for dismissing the action—that Hanna failed to furnish
the requisite security bond—was supported too. Thus, regardless of whether the trial
court acted in excess of its jurisdiction by failing to stay the litigation while the appeal
from the prefiling order was pending, any error was harmless.
17

A017

F. Litigation Stay
Hanna contends that the trial court was without authority to rule on Little League’s
pending discovery motions, which included requests for sanctions, because the litigation
should have been stayed after Little League filed its motion to declare Hanna a vexatious
litigant and to require him to furnish security.6 We agree.
We independently review questions of statutory interpretation. (Reid v. Google,
Inc. (2010) 50 Cal.4th 512, 527 (Reid); Bravo v. Ismaj (2002) 99 Cal.App.4th 211,219.)
‘“Under settled canons of statutory Construction, in construing a statute we ascertain the
Legislature’s intent in order to effectuate the law’s purpose. [Citation.] We must look to
the statute’s words and give them “their usual and ordinary meaning.” [Citation.] “The
statute’s plain meaning controls the court’s interpretation unless its words are
ambiguous.” [Citations.] “If the statutory language permits more than one reasonable
interpretation, courts may consider other aids, such as the statute’s purpose, legislative
history, and public policy.

99955

(Reid, supra, 50 Cal.4th at p. 527.)

6

Little League’s appellate brief does not address this argument on the merits.
Instead, it maintains that Hanna failed in his opening brief “to show whether a final
judgment is being appealed and how the discovery addressed in the appeal could relate to
such a judgment.” Little League’s argument is based on this court’s order limiting
Hanna’s initial appeal to the vexatious litigant prefiling order and denying his request to
appeal from the interlocutoiy discovery orders, which were not appealable. (Doe v.
United States Swimming, Inc (2011) 200 Cal.App.4th 1424, 1432 [“There is no statutory
provision for appeal from an order compelling compliance with a discovery order”].)
Little League’s argument fails because Hanna also appealed from the final judgment. As
Little League acknowledges, discovery orders are reviewable on appeal from a final
judgment. (§ 906; County ofNevada v. Kinicki (1980) 106 Cal.App.3d 357, 363.)
18

A018

once Little League filed its motion under section 391.1. Consequently, we reverse the
June 7, 2018, orders imposing a total of $1,200 in discovery sanctions against Hanna.
DISPOSITION
The June 7, 2018, orders imposing a total of $1,200 in discovery sanctions against
Hanna are reversed. The June 7, 2018, order imposing a prefiling restriction on Hanna as
a pro se litigant is affirmed. In all other respects, the judgment is affirmed. The parties
shall bear their own costs of appeal.
CERTIFIED FOR PARTIAL PUBLICATION
MENETREZ
J.
We concur:
McKINSTER
Acting P. J.
MILLER
J.

20

A020

California Courts - Appellate Court Case Information

1/30/2021

Appellate Courts Case Information
Change court v

Supreme Court
Court data last updated: 01/30/2021 06:00 PM

Disposition
HANNA v. LITTLE LEAGUE BASEBALL
Division SF
Case Number S264586
Only the following dispositions are displayed below: Orders Denying Petitions, Orders Granting Rehearing and Opinions. Go
to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
Date

Description

11/18/2020

Petition for review denied

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy

© 2021 Judicial Council of California

=(AQ:^l=2328788&doc_no=S264586&requestJoken=NilwLSEmTkw%2B...
“■

https://appellatecases.courtinfo.ca.gov/search/case/disposition.cfm7dist

1/1

West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391

§ 391. Definitions
Currentness

As used in this title, the following terms have the following meanings:

(a) “Litigation” means any civil action or proceeding, commenced, maintained or pending in any state or federal court.

(b) “Vexatious litigant” means a person who does any of the following:

(1) In the immediately preceding seven-year period has commenced, prosecuted, or maintained in propria persona at least five
litigations other than in a small claims court that have been (i) finally determined adversely to the person or (ii) unjustifiably
permitted to remain pending at least two years without having been brought to trial or hearing.

(2) After a litigation has been finally determined against the person, repeatedly relitigates or attempts to relitigate, in propria
persona, either (i) the validity of the determination against the same defendant or defendants as to whom the litigation was
finally determined or (ii) the cause of action, claim, controversy, or any of the issues of fact or law, determined or concluded
by the final determination against the same defendant or defendants as to whom the litigation was finally determined.

(3) In any litigation while acting in propria persona, repeatedly files unmeritorious motions, pleadings, or other papers, conducts
unnecessary discovery, or engages in other tactics that are frivolous or solely intended to cause unnecessary delay.

(4) Has previously been declared to be a vexatious litigant by any state or federal court of record in any action or proceedi ng
based upon the same or substantially similar facts, transaction, or occurrence.

(c) “Security” means an undertaking to assure payment, to the party for whose benefit the undertaking is required to be
furnished, of the party’s reasonable expenses, including attorney’s fees and not limited to taxable costs, incurred in or in
connection with a litigation instituted, caused to be instituted, or maintained or caused to be maintained by a vexatious litigant.

(d) “Plaintiff’ means the person who commences, institutes or maintains a litigation or causes it to be commenced, instituted
WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.
*

A022

1

or maintained, including an attorney at law acting in propria persona.

(e) “Defendant” means a person (including corporation, association, partnership and firm or governmental entity) against whom
a litigation is brought or maintained or sought to be brought or maintained.

Credits
(Added by Stats.1963, c. 1471, p. 3088, § 1. Amended by Stats.1982, c. 517, p. 2335, § 98; Stats.1990, c. 621 (S.B.2675), § 1;
Stats. 1994, c. 587 (A.B.3600), § 3.5.)
Editors’ Notes
LAW REVISION COMMISSION COMMENTS
1982 Amendment
Section 391 is amended to delete a provision duplicated in the Bond and Undertaking Law. See Section 995.710 (deposit in
lieu of undertaking). The other changes in Section 391 are technical. [16 Cal.L.Rev.Comm. Reports 501 (1982)].
Notes of Decisions (204)

West’s Ann. Cal. C.C.P. § 391, CA CIV PRO § 391
Current with all laws through Ch. 372 of 2020 Reg.Sess.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

A023

2

O'

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

End of Document

West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
[Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.1

§ 391.1. Motion for order requiring security; grounds
Effective: January 1, 2013
Currentness

In any litigation pending in any court of this state, at any time until final judgment is entered, a defendant may move the court,
upon notice and hearing, for an order requiring the plaintiff to furnish security or for an order dismissing the litigation pursuant
to subdivision (b) of Section 391.3. The motion for an order requiring the plaintiff to furnish security shall be based upon the
ground, and supported by a showing, that the plaintiff is a vexatious litigant and that there is not a reasonable probability that
he or she will prevail in the litigation against the moving defendant.
r

Credits
(Added by Stats.1963, c. 1471, p. 3038, § 1. Amended by Stats.1975, c. 381, p. 855, § 1; Stats.1990, c. 621 (S.B.2675), § 2;
Stats.2012, c. 417 (A.B.2274), § 1.)
Notes of Decisions (43)

West’s Ann. Cal. C.C.P. § 391.1, CA CIV PRO § 391.1
Current with all laws through Ch. 372 of 2020 Reg.Sess.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

A024

3

o

West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.2

§ 391.2. Scope of hearing; ruling not deemed determination of issues
Effective: January 1, 2013
Currentness

At the hearing upon the motion the court shall consider any evidence, written or oral, by witnesses or affidavit, as may be
material to the ground of the motion. Except for an order dismissing the litigation pursuant to subdivision (b) of Section 391.3,
no determination made by the court in determining or ruling upon the motion shall be or be deemed to be a determination of
any issue in the litigation or of the merits thereof.

Credits

(Added by Stats.1963, c. 1471, p. 3038, § 1. Amended by Stats.2012, c. 417 (A.B.2274), § 2.)
P
Notes of Decisions (20)

West’s Ann. Cal. C.C.P. § 391.2, CA CIV PRO § 391.2
Current with all laws through Ch. 372 of 2020 Reg.Sess.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.
w

A025

4

w

West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.3

§ 391-3- Order to furnish security; amount; dismissal of litigation
Effective: January 1, 2013
Currentness

(a) Except as provided in subdivision (b), if, after hearing the evidence upon the motion, the court determines that the plaintiff
is a vexatious litigant and that there is no reasonable probability that the plaintiff will prevail in the litigation against the moving
defendant, the court shall order the plaintiff to furnish, for the benefit of the moving defendant, security in such amount and
within such time as the court shall fix.
«
&•
*'

(b) If, after hearing evidence on the motion, the court determines that the litigation has no merit and has been filed for the
purposes of harassment or delay, the court shall order the litigation dismissed. This subdivision shall only apply to litigation
filed in a court of this state by a vexatious litigant subject to a prefiling order pursuant to Section 391.7 who was represented
by counsel at the time the litigation was filed and who became in propria persona after the withdrawal of his or her attorney.

(c) A defendant may make a motion for relief in the alternative under either subdivision (a) or (b) and shall combine all grounds
for relief in one motion.

Credits
(Added by Stats.1963, c. 1471, p. 3038, § 1. Amended by Stats.1982, c. 517, p. 2335, § 99; Stats.2012, c. 417 (A.B.2274), §
3.)
Editors’ Notes
LAW REVISION COMMISSION COMMENTS
1982 Amendment
Section 391.3 is amended to delete a provision duplicated in the Bond and Undertaking Law. See Sections 996.010 (undertaking
in action or proceeding) and 996.030 (reduced undertaking). [16 Cal.L.Rev.Comm. Reports 501 (1982)].
Notes of Decisions (32)

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

A026

5

*
r>.

West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
| Part 2. Of Civil Actions (Refs & Annos)
|Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.4

§ 391-4- Dismissal for failure to furnish security
Currentness

When security that has been ordered furnished is not furnished as ordered, the litigation shall be dismissed as to the defendant
for whose benefit it was ordered furnished.

Credits
(Added by Stats. 1963, c. 1471, p. 3038, § 1.)
1

'»•
»

Notes of Decisions (20)

West’s Ann. Cal. C.C.P. § 391.4, CA CIV PRO § 391.4
Current with all laws through Ch. 372 of 2020 Reg.Sess.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTtAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.
w1

S’

A027

7

West’s Annotated California Codes
| Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.6

§ 391.6. Stay of proceedings
Effective: January 1, 2013
Currentness

Except as provided in subdivision (b) of Section 391.3, when a motion pursuant to Section 391.1 is filed prior to trial the
litigation is stayed, and the moving defendant need not plead, until 10 days after the motion shall have been denied, or if
granted, until 10 days after the required security has been furnished and the moving defendant given written notice thereof.
When a motion pursuant to Section 391.1 is made at any time thereafter, the litigation shall be stayed for such period after the
denial of the motion or the furnishing of the required security as the court shall determine.
a

Credits
(Added by Stats.1963, c. 1471, p. 3038, § 1. Amended by Stats.1975, c. 381, p. 855, § 2; Stats.2012, c. 417 (A.B.2274), § 4.)
Notes of Decisions (16)

West’s Ann. Cal. C.C.P. § 391.6, CA CIV PRO § 391.6
Current with all laws through Ch. 372 of 2020 Reg.Sess.
End of Document

© 2021 Thomson Reuters. No claim to original U S. Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.
s

A028

8

r
West’s Annotated California Codes
Code of Civil Procedure (Refs & Annos)
Part 2. Of Civil Actions (Refs & Annos)
Title 3a. Vexatious Litigants (Refs & Annos)
West’s Ann.Cal.C.C.P. § 391.8

§ 391.8. Filing application to vacate prefiling order and remove name from Judicial Council’s
list
Effective: January 1, 2012
Currentness

(a) A vexatious litigant subject to a prefiling order under Section 391.7 may file an application to vacate the prefiling order and
remove his or her name from the Judicial Council’s list of vexatious litigants subject to prefiling orders. The application shall
be filed in the court that entered the prefiling order, either in the action in which the prefiling order was entered or in conjunction
with a request to the presiding justice or presiding judge to file new litigation under Section 391.7. The application shall be
made before the justice or judge who entered the order, if that justice or judge is available. If that justice or judge who entered
the order is not available, the application shall be made before the presiding justice or presiding judge, or his or her designee.
£
V

(b) A vexatious litigant whose application under subdivision (a) was denied shall not be permitted to file another application
on or before 12 months has elapsed after the date of the denial of the previous application.

(c) A court may vacate a prefiling order and order removal of a vexatious litigant’s name from the Judicial Council’s list of
vexatious litigants subject to prefiling orders upon a showing of a material change in the facts upon which the order was granted
and that the ends ofjustice would be served by vacating the order.

Credits
(Added by Stats.2011, c. 49 (S.B.731), § 2.)
Editors’ Notes
OFFICIAL FORMS
2020 Electronic Pocket Part Update
<Mandatory and optional Forms adopted and approved by the Judicial Council are set out in West’s California
Judicial Council Forms Pamphlet.>
Notes of Decisions (3)
%

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

A031

13

